HHS/OIG, Audit - "Review of States Reimbursement of the Federal Share of
Aid to Families With Dependent Children Overpayment Recoveries," (A-01-06-02510)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of States Reimbursement of the Federal Share of Aid to Families With Dependent
Children Overpayment Recoveries," (A-01-06-02510)
August 7, 2007
Complete
Text of Report is available in PDF format (491 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the 43 States reviewed, 24 States complied with Federal
requirements and reimbursed ACF $59 million for the Federal share of Aid to
Families With Dependent Children (AFDC) overpayment recoveries from July 2002
through June 2006.  Although the remaining 19 States and the
District of Columbia continued to recover overpayments from former AFDC
recipients after the program ended, these governments did not reimburse ACF
$28.7 million for the Federal share of their recoveries.  The 19 States and the
District of Columbia did not reimburse ACF as required because they did not
follow ACFs program instruction on refunding the Federal share of AFDC
overpayment recoveries.  In addition, ACF did not have monitoring procedures to
ensure that the Federal Government received its share of AFDC overpayment
recoveries from all States.
We recommended
that ACF (1) collect from the 19 States and the District of Columbia the Federal
share of AFDC overpayment recoveries totaling $28.7 million and (2) establish
monitoring procedures to ensure that the Federal Government receives its share
of future State-recovered AFDC overpayments in a timely manner.  ACF agreed with
both recommendations.